HHS/OIG, Audit -"Survey of Medicare Payments to Worker's Compensation Recipients in the State of Florida, (A-04-01-07003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Survey of Medicare Payments to Worker's Compensation Recipients in the State of Florida," (A-04-01-07003)
January 10, 2003
Complete
Text of Report is available in PDF format (4.68 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this survey was to determine whether the Medicare program might be paying for services that should be
covered by the Florida Workers Compensation (WC) program.  Our survey indicated that there is a high vulnerability
of the Medicare program to erroneous payments being made to WC beneficiaries in Florida.  We recommended that the
Centers for Medicare & Medicaid Services (CMS) Region IV:  continue to implement procedures within the regional
office for acquiring, tracking, evaluating, and responding to WC settlements; provide training to regional office staff
and to contractor staff responsible for reviewing WC settlements; establish a point of contact with a representative of
the Florida Division of WC, and persuade the individual of the need for CMS to have access to State WC records on a continual
basis in order to match potential claims; and consider the ICD-9 diagnosis codes that we identified in this survey as being
associated with WC claims in the State, in developing any future edits that may be implemented by CMS.  The CMS Region
IV generally concurred with our findings and recommendations.